        First, BLM has issued inconsistent communication about how it intends to make the
award. The notice BLM posted on FedBizOpps on June 4, 2009, specified that funding is
available for a total small business set-aside, three-year multi-award indefinite-delivery type
contract. A solicitation dated June 15, 2009, for the same work, is advertised as unrestricted.
Clarification is needed to ensure consistency in communications to potential interested parties.

        A second area of concern pertains to a statutory requirement for the contractor selected to
comply with the Davis-Bacon Act, as amended (40 U.S.C. §§ 3141-3148), which specifies that
payment of not less than a prevailing wage rate must be made to workers on federal or federally
funded construction projects over $2,000. BLM’s notice and solicitation define the work layout
as road maintenance or watershed restoration. The North American Industry Classification
System (NAICS) code referenced, 237310, defines highway, street, and bridge construction,
including rehabilitation and repairs. Given the work layout and NAICS coding, this project
clearly falls within the parameters of the Davis-Bacon Act, yet there is no reference to this Act in
the terms and conditions.

        Additionally, there is repeated language throughout the solicitation that describes duties
of the Contracting Officer Representative (COR) that appear to be beyond his or her authority.
Specifically, the scope of work grants the COR the ability to authorize the mobilization of
additional equipment to the job site beyond that specified in a task order, as well as authority to
authorize charges in excess of a task order. Under the Federal Acquisition Regulation (FAR),
contracting officers retain the sole authority to execute contract modifications on behalf of the
government (48 C.F.R. § 43.102). Other personnel are expressly prohibited, by the same
regulation, from directing or encouraging the “contractor to perform work that should be the
subject of a contract modification” or acting in a manner to “cause the contractor to believe that
they have the authority to bind the Government.” Such activities, which involve authorizing
obligations or expenditures of appropriated funds under contracts, when undertaken by a COR,
are not only a violation of the FAR, but can also increase the risk of inadvertent violations of the
Antideficiency Act (31 U.S.C. §1341). The Antideficiency Act is one of the major laws through
which Congress exercises its constitutional control of the public purse, and it prohibits agencies
from obligating the government in excess or in advance of appropriations. Government
employees may be subject to administrative action and/or fined or imprisoned for violating the
Act.

        Finally, the acquisition type used for this contract appears to be commercial based upon
the use of the Standard Form (SF) 1449, Solicitation/Contract/Order for Commercial Item.
However, the scope of the work detailed in the solicitation is clearly construction. FAR 53.236-
1(d)(1) prescribes the use of the SF 1442 when soliciting offers and awarding construction
contracts exceeding the simplified acquisition threshold for construction, alteration or repair.

Recommendations

   We recommend that BLM:

   1) Clarify, by amending the solicitation, whether the bureau intends to award the contract as
      a total small business set-aside or unrestricted competition.

                                                                                                   2
   2) Amend the solicitation to include the requirements of the Davis-Bacon Act.

   3) Correct language throughout the solicitation to remove all references to the COR 

      authorizing obligations or expenditures of appropriated funds. 


   4) Amend the solicitation so a SF 1442 is used.

BLM Response

        BLM officials telephonically acknowledged our findings and agreed to remove the
solicitation until appropriate amendments are prepared. We are encouraged to hear that your
office will take immediate action, and look forward to details on and documentation of the
actions taken.

        We will post this advisory on our website (www.doioig.gov/recovery) and Recovery.gov.
Information contained in this advisory may also be included in our semi-annual reports to
Congress. If you have any questions, or would like a more detailed briefing, please do not
hesitate to contact me.


       cc: 	   Senior Advisor to the Secretary for Economic Recovery and Stimulus
               Acting Assistant Secretary – Policy, Management and Budget
               Director, Office of Acquisition and Property Management
               Director, Office of Financial Management
               BLM Project Lead
               BLM Audit Liaison
               Departmental GAO/OIG Audit Liaison
               Audit Liaison, Office of the Secretary




                                                                                              3
  Report Fraud, Waste, Abuse,


     and Mismanagement


          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
           wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail: 	        U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone:		       24-Hour Toll Free            800- 424-5081
                  Washington Metro Area        703- 487-5435

By Fax:		         703-487-5402

By Internet:		    www.doioig.gov/hotline
